TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  While Effective Actions Have Been Taken to
                  Address Previously Reported Weaknesses in
                  the Protection of Federal Tax Information at
                    State Government Agencies, Additional
                           Improvements Are Needed



                                         November 10, 2009

                                Reference Number: 2010-20-003




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 3(a) = Identifying Information - Name of an Individual or Individuals




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             November 10, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – While Effective Actions Have Been Taken to
                              Address Previously Reported Weaknesses in the Protection of Federal
                              Tax Information at State Government Agencies, Additional
                              Improvements Are Needed (Audit # 200920015)

 This report presents the results of our followup review of a prior audit report 1 to determine
 whether the Internal Revenue Service (IRS) Safeguards Program has implemented sufficient
 policies and procedures to ensure that State Government agencies are adequately protecting
 Federal tax information received from the IRS. This review was included in the Treasury
 Inspector General for Tax Administration Fiscal Year 2009 Annual Audit Plan and is part of our
 statutory requirements to annually review the adequacy and security of IRS information
 technology.

 Impact on the Taxpayer
 The IRS Safeguards Program is tasked with ensuring that State Government agencies receiving
 Federal tax information maintain adequate safeguards to protect the data from unauthorized
 disclosure. The IRS has taken effective actions to address two previously reported weaknesses
 on guidance and contract oversight in the Safeguards Program. However, improvements on the
 monitoring of State agencies’ corrective actions and the timely reporting from reviews of State
 agencies are needed to ensure that Federal tax information provided to State agencies is
 adequately protected. These conditions increase the risk that taxpayer data are not being



 1
  Insufficient Attention Has Been Given to Ensure States Protect Taxpayer Information (Reference
 Number 2007-20-134, dated August 31, 2007).
                         While Effective Actions Have Been Taken to Address
                         Previously Reported Weaknesses in the Protection of
                        Federal Tax Information at State Government Agencies,
                                 Additional Improvements Are Needed


adequately secured and might be inappropriately accessed or used, possibly for fraudulent
purposes such as identity theft.

Synopsis
In August 2007, we reported significant weaknesses in the management of the IRS Safeguards
Program. Specifically, we found that 1) test plans used to conduct safeguard reviews 2 were not
consistent with Federal guidance, 2) corrective actions stemming from safeguard reviews were
not monitored in a Plan of Actions and Milestones (POA&M), 3 3) results of safeguard reviews
were not provided to State Government agencies in a timely manner, and 4) contractor
performance and billing were not adequately managed and verified.
In this review, we found that the IRS had corrected two of these four conditions. The IRS
revised Publication 1075 4 and the test plans to be consistent with guidelines provided in National
Institute of Standards and Technology Special Publication 800-53a 5 and implemented effective
controls to manage the contract supporting the Safeguards Program. However, we believe the
other two areas, the use of POA&Ms and timeliness of reporting results, were only partially
corrected or not corrected at all and will continue to require management attention.
While the Safeguards Program implemented the use of POA&Ms to track security weaknesses, it
did not monitor the targeted due dates of the recorded weaknesses in the POA&Ms to ensure that
corrective actions were implemented in a timely manner. We identified 45 State Government
agencies in the IRS POA&M tool having 1,094 security weaknesses that had not been corrected
by the targeted milestone dates. These weaknesses included instances where access controls and
audit trails had not been implemented effectively. The Safeguards Program conducted only a
limited review of the information provided by the State agencies in their annual reports to
validate that the corrective actions taken were appropriate and implemented. As such, we
believe the IRS Safeguards Program is not proactively monitoring the progress of corrective
actions or validating the closure of corrective actions identified during safeguard reviews of State
agencies and their contractors.


2
  The IRS conducts safeguard reviews to evaluate State Government agencies’ compliance with security procedures.
These reviews generally follow test plans that contain security requirements.
3
  The purpose of a POA&M is to assist agencies in identifying, assessing, prioritizing, and monitoring the progress
of corrective efforts for security weaknesses found in programs and systems.
4
  Tax Information Security Guidelines for Federal, State, and Local Agencies and Entities, dated October 2007,
provides guidance to States regarding the policies and procedures necessary to adequately protect Federal tax
information.
5
  Guide for Assessing the Security Controls in Federal Information Systems, dated July 2008, provides guidelines for
building security assessment plans and comprehensive procedures for assessing the effectiveness of security controls
employed in information systems in the Federal Government.
                                                                                                                  2
                      While Effective Actions Have Been Taken to Address
                      Previously Reported Weaknesses in the Protection of
                     Federal Tax Information at State Government Agencies,
                              Additional Improvements Are Needed


In addition, we determined that safeguard review reports continue to be issued in an untimely
manner. For safeguard reviews conducted in Fiscal Year 2008, the Safeguards Program issued
66 of 78 draft reports in an average of 106 calendar days after the closing conferences. As of
June 30, 2009, the remaining 12 draft reports for Fiscal Year 2008 had not yet been issued to the
recipient agencies and their contractors. These reports averaged 354 calendar days past the
closing conference dates.

Recommendations
We recommended that the Director, Safeguards, Small Business/Self-Employed Division,
1) revise existing policies, as necessary, to require State agencies and their contractors to provide
sufficient documentation on a more frequent basis to support that corrective actions were taken
to address reported computer security weaknesses, 2) complete planned personnel actions so that
adequate staffing is available to proactively monitor and validate the corrective security actions
taken by State agencies and their contractors, and 3) continue to use the recently implemented
monitoring tool and complete the training of new staff to increase the efficiency of the reporting
process.

Response
IRS management agreed with our recommendations. Publication 1075 will be revised to require
the State Government agencies to report the status of their actions to address outstanding
findings on a semiannual basis and provide documentary verification when closing high-priority
findings. In addition, a recruitment action to staff a full-time position dedicated to the
monitoring of corrective actions taken by State agencies and their contractors will be completed.
Lastly, the Office of Safeguards will continue to utilize the inventory monitoring tool and
complete the training of new staff.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
Assistant Inspector General for Audit (Security and Information Technology Services), at
(202) 622-8510.




                                                                                                    3
                             While Effective Actions Have Been Taken to Address
                             Previously Reported Weaknesses in the Protection of
                            Federal Tax Information at State Government Agencies,
                                     Additional Improvements Are Needed




                                           Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Safeguards Program Has Corrected Prior Weaknesses on
          Its Test Plans and Contract Oversight...........................................................Page 3
          The Safeguards Program Was Not Adequately Monitoring and
          Verifying Whether State Government Agencies Are Implementing
          Corrective Actions on Identified Computer Security Weaknesses...............Page 4
                    Recommendation 1:..........................................................Page 5

                    Recommendation 2:..........................................................Page 6

          The Results of Safeguard Reviews of State Government Agencies
          Continue to Be Reported in an Untimely Manner ........................................Page 6
                    Recommendation 3:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Management’s Response to the Draft Report ......................Page 12
         While Effective Actions Have Been Taken to Address
         Previously Reported Weaknesses in the Protection of
        Federal Tax Information at State Government Agencies,
                 Additional Improvements Are Needed




                   Abbreviations

IRS          Internal Revenue Service
NIST         National Institute of Standards and Technology
POA&M        Plan of Actions and Milestones
                         While Effective Actions Have Been Taken to Address
                         Previously Reported Weaknesses in the Protection of
                        Federal Tax Information at State Government Agencies,
                                 Additional Improvements Are Needed




                                           Background

The Internal Revenue Code 1 authorizes the Internal Revenue Service (IRS) to disclose Federal
tax information to various State Government agencies for the purpose of tax administration. For
example, State tax agencies can use Federal tax information to identify individuals who have not
filed State tax returns, determine whether discrepancies exist in the reporting of income, locate
delinquent taxpayers, and determine whether IRS adjustments have State tax implications.
Due to Federal Government requirements to protect tax information and the concerns over the
potential misuse of unprotected data for identity theft, State Government agencies are required to
have adequate controls in place to prevent unauthorized disclosures. Tax Information Security
Guidelines for Federal, State, and Local Agencies and Entities (IRS Publication 1075, dated
October 2007) provides guidance to State agencies regarding the policies and procedures
necessary to adequately protect Federal tax information. Before a State agency receives Federal
tax information, it must submit a formal report that describes how it will protect and safeguard
the tax information. In addition, State agencies that receive Federal tax information are required
to file an annual report to describe any changes to their safeguard procedures, advise the IRS of
future actions that will affect safeguard procedures, and certify that they are protecting the data.
The Safeguards Program within the Communications, Liaison, and Disclosure organization of
the IRS Small Business/Self-Employed Division is responsible for managing and providing
oversight to State Government agencies receiving Federal tax information. To ensure the
information is adequately protected, the Safeguards Program is responsible for conducting
safeguard reviews 2 at least once every 3 years of each State agency receiving Federal tax
information and is responsible for evaluating the State agencies’ compliance with security
procedures. During its onsite reviews, the Safeguards Program uses test plans that address the
security requirements for State agencies processing and storing Federal tax information on
different computing platforms, including Windows, UNIX, and IBM mainframe computers.
In February 2003, we issued a report 3 which concluded that Federal tax information was at risk
while in the possession of State Government tax agencies. In September 2005, we issued a
followup report 4 that raised specific concerns regarding the physical security, user account

1
  Internal Revenue Code Section 6103 (2008).
2
  The IRS conducts safeguard reviews to evaluate State Government agencies’ compliance with security procedures.
These reviews generally follow test plans that contain security requirements.
3
  Computer Security Weaknesses at State Agencies Put Federal Tax Information at Risk (Reference
Number 2003-20-064, dated February 21, 2003).
4
  Increased IRS Oversight of State Agencies Is Needed to Ensure Federal Tax Information Is Protected (Reference
Number 2005-20-184, dated September 30, 2005).
                                                                                                        Page 1
                         While Effective Actions Have Been Taken to Address
                         Previously Reported Weaknesses in the Protection of
                        Federal Tax Information at State Government Agencies,
                                 Additional Improvements Are Needed



management, access controls, audit trails, intrusion detection, and firewall systems at all four
State agencies we visited. These weaknesses placed Federal tax information at increased risk of
unauthorized use or theft.
In August 2007, we conducted another followup review 5 and reported significant weaknesses in
the management of the IRS Safeguards Program. Specifically, we reported that 1) test plans
used to conduct safeguard reviews were not consistent with Federal guidance provided by the
National Institute of Standards and Technology (NIST) Special Publication 800-53a, 6
2) corrective actions stemming from safeguard reviews were not monitored, 3) results of
safeguard reviews were not provided to State Government agencies in a timely manner, and
4) contractor performance and billing were not adequately managed and verified.
This review was performed at the Small Business/Self-Employed Division Safeguards Program
office in the IRS Headquarters in Washington, D.C., during the period March through
August 2009. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




5
  Insufficient Attention Has Been Given to Ensure States Protect Taxpayer Information (Reference
Number 2007-20-134, dated August 31, 2007).
6
  Guide for Assessing the Security Controls in Federal Information Systems, dated July 2008, provides guidelines for
building security assessment plans and comprehensive procedures for assessing the effectiveness of security controls
employed in information systems in the Federal Government.
                                                                                                            Page 2
                         While Effective Actions Have Been Taken to Address
                         Previously Reported Weaknesses in the Protection of
                        Federal Tax Information at State Government Agencies,
                                 Additional Improvements Are Needed




                                      Results of Review

During our August 2007 review, we reported significant weaknesses in the management of the
IRS Safeguards Program. Specifically, we identified four key areas needing management
attention.
    1. To be consistent with Federal Government computer security guidance found in NIST
       Special Publication 800-53a, management needed to revise its test plans used during its
       onsite reviews of State agencies.
    2. To increase its management oversight of the contract supporting the Safeguards Program,
       management needed to clearly define task orders, 7 staff hours, and contractor
       deliverables, as well as closely monitor contractor billings.
    3. To monitor and validate State Governments’ corrective actions of reported computer
       security weaknesses, management needed to develop and implement a Plan of Actions
       and Milestones (POA&M) 8 process.
    4. To comply with the 45-day reporting time period, management needed to improve its
       timeliness of reporting the results of its reviews to State Government agencies.
In July 2007, the Safeguards Program was moved from the Modernization and Information
Technology Services Cybersecurity organization to the Small Business/Self-Employed Division.
The new management staff took immediate actions to address these weaknesses. In our current
review, we noted improvements in the first two areas. IRS Publication 1075 and the test plans
have been revised to be consistent with Federal guidelines, and effective controls have been
implemented to manage the contract supporting the Safeguards Program. However, we believe
the other two areas, the use of POA&Ms and the timeliness of reporting results, were only
partially corrected or not corrected at all and will continue to require management attention.

The Safeguards Program Has Corrected Prior Weaknesses on Its Test
Plans and Contract Oversight
During our 2007 review, we determined that test plans the Safeguards Program management
approved for use during its computer security onsite reviews of State Government agencies had
not been updated to include many of the control areas described in NIST Special

7
 A task order is an order for services placed against an established contract.
8
 The purpose of a POA&M is to assist agencies in identifying, assessing, prioritizing, and monitoring the progress
of corrective efforts for security weaknesses found in programs and systems.
                                                                                                            Page 3
                      While Effective Actions Have Been Taken to Address
                      Previously Reported Weaknesses in the Protection of
                     Federal Tax Information at State Government Agencies,
                              Additional Improvements Are Needed



Program POA&M management tool, and receives annual updates from the agencies explaining
what corrective actions they have taken.
However, the Safeguards Program does not monitor the targeted due dates of the recorded
weaknesses to ensure that corrective actions are implemented in a timely manner. We identified
45 State agencies in the IRS POA&M tool having 1,094 security weaknesses that had not been
corrected by the targeted milestone dates. These weaknesses included instances where access
controls and audit trails had not been implemented effectively. The Safeguards Program
conducts only a limited review of the information provided by the State agencies in their annual
reports to validate that corrective actions taken were appropriate and implemented. Therefore,
we believe the Safeguards Program is not proactively monitoring the progress of corrective
actions or validating the closure of corrective actions identified during safeguard reviews of State
agencies and their contractors.
For its monitoring efforts, the Safeguards Program places the burden for monitoring corrective
actions on the State agencies and their contractors that receive Federal tax information. As for
validating closure of corrective actions, the Safeguards Program POA&M methodology does not
include the validation of corrective actions prior to their closure on the POA&M. When we
presented our concerns over this issue, Safeguards Program management informed us that they
had planned to revise IRS Publication 1075 to increase the frequency of POA&M reporting by
State agencies. However, the specifics of the time periods or format for the new reporting
requirements have not been defined. Safeguards Program management also explained that they
do not currently have the staff needed to proactively monitor the POA&Ms. Management plans
to fill a staff position that would be dedicated to proactively managing the corrective actions in
the POA&M tool.
Given limited oversight by the Safeguards Program, State Government agencies and their
contractors might not take appropriate corrective actions within a reasonable time period to
correct security weaknesses identified in safeguard reviews. Inaction or inappropriate actions by
State agencies and their contractors increase the risk that Federal tax information might not be
adequately protected and might be inappropriately accessed or used, possibly for fraudulent
purposes such as identity theft.

Recommendations
The Director, Safeguards, should:
Recommendation 1: Revise existing policies, as necessary, to require State agencies and
their contractors to provide sufficient documentation on a more frequent basis to support that
corrective security actions were taken to address reported computer security weaknesses.



                                                                                             Page 5
                      While Effective Actions Have Been Taken to Address
                      Previously Reported Weaknesses in the Protection of
                     Federal Tax Information at State Government Agencies,
                              Additional Improvements Are Needed



       Management’s Response: IRS management agreed with this recommendation.
       Revisions to IRS Publication 1075 will require agencies to 1) report the status of their
       actions to address outstanding findings on a semiannual basis and 2) provide
       documentary verification when closing high-priority findings.
Recommendation 2: Complete planned personnel actions so that adequate staffing is
available to proactively monitor and validate the corrective security actions taken by State
agencies and their contractors.
       Management’s Response: IRS management agreed with this recommendation. A
       recruitment action has been initiated to staff a full-time position dedicated to the
       monitoring of corrective actions taken by the State agencies and their contractors.

The Results of Safeguard Reviews of State Government Agencies
Continue to Be Reported in an Untimely Manner
IRS procedures state that safeguard review reports should be provided to the State agency and/or
to its contractors promptly after the conclusion of the onsite portion of the review to convey the
IRS’ commitment to ensuring the confidentiality of the Federal tax information and return
information. The interim safeguard review reports should be issued within 45 calendar days
after the closing conference.
During our 2007 review, we reported that the Safeguards Program issued safeguard reports
during Fiscal Years 2006 and 2007 in an average of 81 calendar days after completion of onsite
reviews. We attributed the late issuance of reports to a lack of management attention to the
process.
In this review, we determined that the IRS has increased its management attention to the
reporting process. Safeguards Program management provided us with the spreadsheet tool they
use to monitor the status of reports. In the prior audit, management did not use similar
monitoring tools.
While management attention has increased, reports still continue to be issued in an untimely
manner. For safeguard reviews conducted in Fiscal Year 2008, the Safeguards Program issued
66 of 78 draft reports in an average of 106 calendar days after the closing conferences. As of
June 30, 2009, the remaining 12 draft reports for Fiscal Year 2008 had not been issued to the
recipient agencies and their contractors and averaged 354 calendar days after the closing
conference dates. With these delays, security weaknesses identified in safeguard reviews might
not be addressed for months after the reviews, increasing the risk that Federal tax information
might not be adequately protected and, therefore, could be inappropriately accessed or used.
We believe the most significant cause for the delays in reporting was a turnover in staff in the
Safeguards Program. At the end of Fiscal Year 2008, two experienced staff employees retired

                                                                                               Page 6
                     While Effective Actions Have Been Taken to Address
                     Previously Reported Weaknesses in the Protection of
                    Federal Tax Information at State Government Agencies,
                             Additional Improvements Are Needed



and three new employees were hired. The new hires have devoted considerable time to
completing the training program established by the Safeguards Program. Safeguards Program
management believes that once the new hires are trained, and they are available to devote their
full attention to the review process, the timeliness issue will improve.

Recommendation
The Director, Safeguards, should:
Recommendation 3: Continue to use the recently implemented monitoring tool and complete
the training of new staff to increase the efficiency of the reporting process.
       Management’s Response: IRS management agreed with this recommendation.
       They will continue to utilize the inventory monitoring tool, focus on improving the timely
       issuance of reports, and complete the training of new employees.




                                                                                           Page 7
                         While Effective Actions Have Been Taken to Address
                         Previously Reported Weaknesses in the Protection of
                        Federal Tax Information at State Government Agencies,
                                 Additional Improvements Are Needed



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to follow up on a prior audit report 1 and determine
whether the IRS Safeguards Program has implemented sufficient policies and procedures to
ensure that State Government agencies are adequately protecting Federal tax information
received from the IRS. To accomplish our objective, we:
I.      Determined whether test plans used to conduct safeguard reviews are consistent with
        applicable guidance, including IRS Publication 1075 2 and NIST Special
        Publication 800-53a. 3
        A. Reviewed all 13 test plans being used during safeguard reviews. 4
        B. Compared test plans with IRS Publication 1075 and NIST Special
           Publication 800-53a.
        C. Discussed any discrepancies noted in Step I.B. with Safeguards Program management
           to determine reasons for variances in the documents.
II.     Determined whether a sound oversight program has been implemented to conduct
        safeguard reviews, identify weaknesses and corrective actions, and monitor corrective
        actions to completion.
        A. Reviewed milestone information for safeguard reviews to determine whether:
             1. Reviews are started as scheduled.
             2. Reviews are completed in a timely manner.
             3. Results are provided to State agencies in a timely manner.



1
  Insufficient Attention Has Been Given to Ensure States Protect Taxpayer Information (Reference
Number 2007-20-134, dated August 31, 2007).
2
  Tax Information Security Guidelines for Federal, State, and Local Agencies and Entities, dated October 2007,
provides guidance to States regarding the policies and procedures necessary to adequately protect Federal tax
information.
3
  Guide for Assessing the Security Controls in Federal Information Systems, dated July 2008, provides guidelines for
building security assessment plans and comprehensive procedures for assessing the effectiveness of security controls
employed in information systems in the Federal Government.
4
  The IRS conducts safeguard reviews to evaluate State Government agencies’ compliance with security procedures.
These reviews generally follow test plans that contain security requirements.
                                                                                                            Page 8
                         While Effective Actions Have Been Taken to Address
                         Previously Reported Weaknesses in the Protection of
                        Federal Tax Information at State Government Agencies,
                                 Additional Improvements Are Needed



        B. Determined whether the Safeguard Program is:
             1. Tracking weaknesses and corrective actions resulting from safeguard reviews
                using a POA&M 5 process.
             2. Closely monitoring the POA&Ms to ensure that corrective actions are
                implemented.
             3. Properly validating corrective actions prior to closing them out on the POA&Ms.
        C. Discussed any issues identified from audit Steps II.A. and II.B. with Safeguards
           Program management to determine why issues exist.
        D. Assessed the effect of any weaknesses identified during completion of audit
           Steps II.A. and II.B.
III.    Determined whether contractor support for the Safeguards Program is adequately
        managed.
        A. Determined whether work requests are written for each task and clearly define the
           work to be performed as outlined in the Statement of Work (including skill categories
           and estimated hours per category; required products, due dates, and specific
           acceptance criteria; performance sites; and any Government-furnished equipment
           needed by the contractor).
        B. Determine whether work requests are reviewed and approved by IRS management.
        C. Discussed the contractor oversight process with Safeguards Program management,
           reviewed evidence that contractor performance is being reviewed on a regular basis,
           and determined whether the review process appears effective.
        D. Reviewed contractor invoices and documentation to determine whether they are
           adequately reviewed prior to approval by IRS management.
        E. Discussed any issues identified from audit Steps III.A. through III.D. with Safeguards
           Program management to determine why the issues exist.
        F. Assessed the effect of weaknesses identified during completion of audit Steps III.A.
           through III.D.




5
 The purpose of a POA&M is to assist agencies in identifying, assessing, prioritizing, and monitoring the progress
of corrective efforts for security weaknesses found in programs and systems.
                                                                                                            Page 9
                     While Effective Actions Have Been Taken to Address
                     Previously Reported Weaknesses in the Protection of
                    Federal Tax Information at State Government Agencies,
                             Additional Improvements Are Needed



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Kent Sagara, Acting Director
Carol Taylor, Audit Manager
Myron Gulley, Senior Auditor
Louis Lee, Senior Auditor
Monique Queen, Information Technology Specialist




                                                                                       Page 10
                    While Effective Actions Have Been Taken to Address
                    Previously Reported Weaknesses in the Protection of
                   Federal Tax Information at State Government Agencies,
                            Additional Improvements Are Needed



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
   SE:S:CLD
Director, Safeguards, Small Business/Self-Employed Division SE:S:CLD:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 11
       While Effective Actions Have Been Taken to Address
       Previously Reported Weaknesses in the Protection of
      Federal Tax Information at State Government Agencies,
               Additional Improvements Are Needed



                                                   Appendix IV

Management’s Response to the Draft Report




                                                         Page 12
 While Effective Actions Have Been Taken to Address
 Previously Reported Weaknesses in the Protection of
Federal Tax Information at State Government Agencies,
         Additional Improvements Are Needed




                                                   Page 13
 While Effective Actions Have Been Taken to Address
 Previously Reported Weaknesses in the Protection of
Federal Tax Information at State Government Agencies,
         Additional Improvements Are Needed




                                                   Page 14
